App. 1
United States Court of Appeals
For the Seventh Circuit|
Chicago, Illinois 60604
Submitted March 10, 2021
Decided March 26, 2021
Before
FRANK H. EASTERBROOK, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
AMY J. ST. EVE, Circuit Judge
NO. 19-2671
LORENZO WILLIAMS,
Petitioner-Appellant,
v.
STEVE KALLIS,
Respondent-Appellee.

Appeal from the United
States District Court for
the Central District
of Illinois.
No. 1:19-cv-01083-MMM
Michael M. Mihm,
Judge.

ORDER
For using a knife to mug a cab driver, Lorenzo Williams was convicted in 2001 of Hobbs Act Robbery, 18
U.S.C. § 1951(a), in the Northern District of Iowa. This
fit a pattern for Williams, whose prior holdups (numbering at least five) had led on three separate occasions
to convictions for second-degree robbery under IOWA
CODE §§ 711.1 and 711.3.
The federal court sentenced Williams to life imprisonment under the three-strikes law, 18 U.S.C.

App. 2
§ 3559(c), because each robbery conviction was a “serious violent felony” under § 3559(c)(2)(F). Section 3559
defines a serious violent felony with (1) an “enumerated-offenses” clause that lists crimes including “robbery (as described in [18 U.S.C. §§] 2111, 2113, or
2118)”; (2) an “elements” clause that covers “any other
offense . . . that has as an element the use, attempted
use, or threatened use of physical force against the person of another”; and (3) a “residual” clause reaching
“any other offense . . . that, by its nature, involves a
substantial risk that physical force against the person
of another may be used in the course of committing the
offense.”
For years, Williams has challenged his life sentence without result. See United States v. Williams, 308
F.3d 833, 839-40 (8th Cir. 2002) (affirming on direct
appeal); No. C04-0002-CRW (N.D. Iowa Nov. 20, 2006)
(denying motion to vacate sentence); No. 1:12-cv-1LRR (N.D. Iowa Jan. 3, 2012) (dismissing, as successive, another motion to vacate); No. 13-1684 (8th Cir.
July 29, 2013) (denying leave to file successive motion);
No. C14-0064-LRR (N.D. Iowa June 3, 2014) (dismissing yet another successive motion to vacate); No. C160107-LRR (N.D. Iowa Oct. 2, 2017) (same); No. 16-2434
(8th Cir. Jan. 30, 2019) (denying leave to file successive
motion).
Now Williams seeks a writ of habeas corpus under
28 U.S.C. § 2241 in the Central District of Illinois,
where he is incarcerated. He argues that his Iowa robberies are not serious violent felonies under the federal
three-strikes law. Yet 28 U.S.C. § 2255(e) declares a

App. 3
motion under § 2255 to be the exclusive remedy for a
prisoner who seeks to collaterally attack a federal sentence, unless such a motion is “inadequate or ineffective to test the legality of his detention.” We have held
that § 2255 can be deemed inadequate or ineffective if
the prisoner’s claim relies on a new and retroactive
change in statutory law that could not have been invoked in a first § 2255 motion. Montana v. Cross, 829
F.3d 775, 783 (7th Cir. 2016); In re Davenport, 147 F.3d
605, 610 (7th Cir. 1998).
So, to justify seeking habeas corpus relief in this
circuit, Williams cites Mathis v. United States, 136
S. Ct. 2243 (2016), as a relevant change in law. Mathis,
in interpreting an Iowa burglary statute and applying
the enumerated-offenses clause of a federal recidivism
statute to it, opined that the Eighth Circuit had at
times misused the so-called “modified categorical approach” to classify crimes based on the means used to
commit them; the modified categorical approach can be
used only to differentiate between alternative elements that define distinct predicate offenses, not between different means of committing a single crime. Id.
at 2249, 2251. In Williams’s view, the sentencing court
counted his Iowa robberies as serious violent felonies
only because the Eighth Circuit erroneously permitted
use of the modified categorical approach to parse IOWA
CODE § 711.1, which includes forcible and non-forcible
variants.
But the district court dismissed the petition on the
ground that Mathis was not a “new” change in statutory law whose prior absence had prevented Williams

App. 4
from making his argument on direct appeal or in his
first § 2255 motion.
Regardless of whether Mathis is “new” for at least
some petitioners, see generally Chazen v. Marske, 938
F.3d 851 (7th Cir. 2019), we agree with the district
court’s bottom line here. Williams could have raised his
claim in earlier litigation in the Eighth Circuit, and if
Eighth Circuit law foreclosed the claim, it did so for
reasons that Mathis did not upset. Indeed, in 2019—a
few years after Mathis—the Eighth Circuit recognized
forcible variants of Iowa robbery as violent felonies.
See Golinveaux v. United States, 915 F.3d 564, 569 (8th
Cir. 2019). In doing so, the Eighth Circuit saw Mathis
as changing nothing for this statute; the different variants of Iowa robbery describe alternative elements,
not means. See id. at 570; id. at 572 (Colloton, J., concurring). It follows that Mathis did not make Williams’s challenge to his sentence any more likely to
succeed today than at the time of his sentencing. Because Williams was “entirely free to make his current
argument” in his first § 2255 motion or his direct appeal, and Mathis changed nothing for him, he cannot
proceed under § 2241 now. Montana, 829 F.3d at 785.
Williams does not identify an Eighth Circuit precedent that, at the time of his conviction or § 2255 motion, stood in the way of his present theory. He asserts
only that he was foreclosed from pressing a constitutional claim that jurors, not judges, should determine
the existence of prior convictions and their effect on
a federal sentence. But the caselaw foreclosing that
claim has not changed—least of all through Mathis,

App. 5
which reaffirmed that judges may find whether the elements of defendants’ prior convictions support a sentence enhancement. See 136 S. Ct. at 2252.
The judgment dismissing the petition is therefore
summarily AFFIRMED. Williams’s motion to proceed
in forma pauperis is DENIED, and the motion to
amend his brief is GRANTED to the limited extent
that the court considered the arguments in the motion.

App. 6
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
PEORIA DIVISION
LORENZO WILLIAMS,
Petitioner,
v.
STEVE KALLIS,
Respondent.

)
)
)
Case No. 19-1083-MMM
)
)
)

MEMORANDUM OPINION AND ORDER
(Filed Aug. 19, 2019)
Presently before the Court is Petitioner’s Motion
for Reconsideration. (D. 11.1) For the reasons stated
herein, the Motion is DENIED, and the case remains
CLOSED.
PROCEDURAL HISTORY
On June 24, 2019, this Court entered an Order
denying Petitioner Lorenzo Williams’ petition for writ
of habeas corpus under 28 U.S.C. § 2241 and dismissing his claim, as he failed to satisfy the procedural requirements to consider the merits of his petition. (D.
9.) On July 10, 2019, Williams filed the Motion at hand,
arguing a recent ruling by the Seventh Circuit cures
the procedural defects in his petition and that the

1

Abbreviations to the docket are cited as (D. ___).

App. 7
Court should reconsider its decision. (D. 11.) This Order follows.
LEGAL STANDARD
A timely motion under Rule 59(e) is effectively a
motion for reconsideration. “Motions under Rule 59(e)
will only be granted in order to correct manifest errors
of law or fact, to present new evidence, or where there
has been an intervening and substantial change in the
controlling law, and ‘should only be granted in rare circumstances.’ ” Leslie v. Roberson, No. 15 C 2395, 2017
WL 4158887, at *2 (N.D. Ill. Sept. 19, 2017) (citing Divane v. Krull Elec. Co., Inc., 194 F.3d 845, 848 (7th Cir.
1999)). A party moving for reconsideration under Rule
59(e) bears a heavy burden of establishing the court
should reverse its prior judgment. Caisse Nationale de
Credit Agricole v. CBI Indus., Inc., 90 F.3d 1264, 1270
(7th Cir. 1996). “A ‘manifest error’ is not demonstrated
by the disappointment of the losing party. It is the
‘wholesale disregard, misapplication, or failure to recognize controlling precedent.’ ” Oto v. Metro. Life Ins.
Co., 224 F.3d 601, 606 (7th Cir. 2000) (quoting Sedrak
v. Callahan, 987 F. Supp. 1063, 1069 (N.D. Ill. 1997)). It
is not appropriate to argue matters that could have
been raised in prior motions or to rehash previously
rejected arguments in a motion to reconsider. Caisse
Nationale, 90 F.3d at 1270.

App. 8
DISCUSSION
In his Motion for Reconsideration, Williams argues the Court’s decision to deny his § 2241 petition
was in error based on the Seventh Circuit’s June 24,
2019, ruling in Beason v. Marske, 926 F.3d 932 (7th Cir.
2019). Specifically, Williams asserts (albeit parenthetically) that in Beason, the court held that “substantive
decisions such as Mathis presumptively apply retroactively on collateral review under 2241.” (D. 11 at 1.)
Williams, however, fails to demonstrate that Mathis v.
United States, 136 S. Ct. 2243 (2016), established a
new rule which was unavailable to him at the time of
his direct appeal and first § 2255 motion. Accordingly,
his Motion for Reconsideration is DENIED.
Williams is no stranger to arguing the sentencing
enhancement he received under the Violent Crime
Control and Law Enforcement Act of 1994, commonly
known as the “three strikes law” (18 U.S.C. § 3559),
was incorrectly applied.
On November 6, 2001, Williams appealed his conviction to the Eighth Circuit Court of Appeals, arguing,
in part, that under Apprendi v. New Jersey, 530 U.S.
466 (2000), the government had to include his prior felonies in the indictment and prove to a jury beyond a
reasonable doubt that he had prior convictions for serious felonies before the three-strikes enhancement
could be applied. United States v. Williams, 308 F.3d
833, 839 (8th Cir. 2002). He also argued that the application of the three-strikes enhancement at sentencing
denied him due process by placing the burden on him

App. 9
to prove by clear and convincing evidence that the
prior convictions were not serious violent felonies. Id.
On July 28, 2005, in his first motion to vacate under 28 U.S.C. § 2255, Williams argued his trial counsel
demonstrated ineffective assistance by depriving him
the ability to argue his prior convictions were not
crimes of violence under the three-strikes law by stipulating to the underlying facts of his previous convictions.2
On July 23, 2009, Williams filed a motion to reduce
sentence,3 arguing that under 18 U.S.C. § 3582(c)(2)
and Amendment 709 to the Sentencing Guidelines, he
was entitled to a resentencing hearing, as his “prior
sentences were for offenses that were not separated by
an intervening arrest[,]” and therefore, should have
been considered a single conviction.
On May 21, 2014, Williams attempted to file his
third successive § 2255 motion,4 arguing in light of
Descamps v. United States, 133 S. Ct. 2276 (2013), and
using the modified categorical approach, his prior convictions for second-degree robbery did not constitute
“serious violent felonies” under the three-strikes law.

2

Brief, United States v. Williams, No. 00-cr-00056 (N.D.
Iowa), ECF No. 128.
3
Motion to Reduce Sentence, United States v. Williams, No.
00-cr-00056 (N.D. Iowa), ECF No. 182.
4
Motion to Vacate, Williams v. United States, No. 14-cv00064 (N.D. Iowa), ECF No. 1.

App. 10
On May 25, 2016, Williams attempted to file his
fourth successive § 2255 motion,5 arguing his sentence
was unconstitutional under Johnson v. United States,
135 S. Ct. 2251 (2015), and Welch v. United States, 136
S. Ct. 1257 (2016), because the Supreme Court in Johnson held that the residual clause of the Armed Career
Criminal Act (“ACCA”) defining “violent felony” was
unconstitutionally vague.
On April 20, 2017, Williams filed a supplemental
petition with the Eighth Circuit,6 arguing he had established a prima facie case that his sentence relied on
the unconstitutionally vague residual clause of 18
U.S.C. § 3559(c)(2)(F).
As the procedural history of Williams’ unsuccessful attempts to file successive § 2255 motions demonstrates, with his latest petition, he merely attempts to
lever his way into section 2241 by making his section
2255 remedy inadequate. Beason does not hold that
the Supreme Court established a new rule in Mathis.
Mathis and Descamps, “are simply the Supreme Court’s
latest interpretations of the categorical approach the
Court has long applied in deciding whether a prior conviction is an ACCA violent felony.” Martin v. United
States, 904 F.3d 594, 597 (8th Cir. 2018). The Beason
court concluded that one of the petitioner’s grounds for
relief—that his prior convictions for Wisconsin drug
5

Motion to Vacate, Williams v. United States, 16-cv-00107
(N.D. Iowa), ECF No. 1.
6
Supplemental Petition, Williams v. United States, 16-cv2434 (8th Cir.), ECF No.

App. 11
offenses failed to constitute “serious drug offenses” under the ACCA—was foreclosed to him at the time of his
§ 2255 motion, and remanded his case for resentencing. That scenario is not present here, and Williams
could have argued the indivisible second-degree robbery crimes for which he was convicted failed to constitute “serious violent felonies” under the three-strikes
law. Without going into the merits of that argument,
the Court notes he did not, and his Motion for Reconsideration is DENIED.
CONCLUSION
For the reasons stated herein, Petitioner’s [11] Motion for Reconsideration is DENIED. This case remains
CLOSED.
Entered on August 19, 2019.
/s/ Michael M. Mihm
Michael M. Mihm
United States District Judge

App. 12
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
PEORIA DIVISION
LORENZO WILLIAMS,
Petitioner,
Case No. 19-1083
Criminal Case No. 00-cr-00056

v.
STEVE KALLIS,
Respondent.

MEMORANDUM OPINION AND ORDER
(Filed Jun. 24, 2019)
Presently before the Court is Lorenzo Williams’
Petition for Writ of Habeas Corpus under 28 U.S.C.
§ 2241 (ECF No. 1), and the Government’s Motion for
Leave to Bifurcate Response and Partial Response
(ECF No. 5). For the reasons stated herein, the Government’s Motion for Leave to Bifurcate is GRANTED,
Williams’ Petition is DENIED, and his claim for sentencing relief is DISMISSED. The Clerk of Court is directed to close this case.
BACKGROUND1
On September 28, 2000, Williams was indicted in
the U.S. District Court for the Northern District of
Iowa on one charge of Interference with Commerce by
1

Portions of the second paragraph are taken, nearly verbatim, from United States v. Williams, 308 F.3d 833, 835-36 (8th
Cir. 2002).

App. 13
Violence, a violation of the Hobbs Act under 18 U.S.C.
§ 1951, for robbing a taxicab driver at knifepoint two
weeks prior. The Hobbs Act, which amended the Federal Anti-Racketeering Act of 1934, was intended to remove artificial restraints on the free flow of goods.
United States v. Staszcuk, 517 F.2d 53, 56-58 (7th Cir.
1975). The Act provides that “whoever in any way or
degree obstructs, delays, or affects commerce . . . by
robbery or extortion or attempts or conspires to do
so . . . shall be fined under this title or imprisoned
not more than 20 years, or both.” 18 U.S.C. § 1951(a)
(1994). Williams’ modus operandi was to rob cab drivers at knifepoint and, upon exit, rip the radio from the
cab’s console, eliminating the ability of the driver (precell phone era) to call for help.
At trial, the cab driver was the only corroborating
witness to testify to the events of the robbery. Williams’
attorney attempted to impeach the driver’s credibility
by suggesting the events between he and Williams
were a drug deal gone bad. In response, the government introduced evidence of Williams’ five prior convictions for cab robberies spanning more than two decades.
To support its theory that Williams’ crime affected interstate commerce, the government introduced evidence that most of the cab fare revenue was used to
buy gasoline (which moved through interstate commerce), the driver frequently transported FedEx employees, railroad crew members, and packages (which
were moving through interstate commerce), and the
cab was inoperable during the time of the robbery

App. 14
(when lucrative trips to the Eastern Iowa Airport were
likely to occur).
After three days of testimony, a jury returned a
guilty verdict against Williams for Interference with
Commerce by Robbery, in violation of 18 U.S.C. § 1951.2
Because he had at least two prior convictions for robbing cab drivers at knifepoint, Williams was subject
to a sentence enhancement under the federal Three
Strikes Law, 18 U.S.C. § 3559(c)(1)(A)(i) (1998). The
Three Strikes Law mandates life sentences for persons
convicted of two or more serious violent crimes.
Immediately after sentencing, Williams appealed
his conviction to the U.S. Court of Appeals for the
Eighth Circuit,3 arguing (i) the district court erred by
admitting prior bad acts evidence and instructing the
jury on the interstate commerce element of the offense;
(ii) there was insufficient evidence to prove the interstate commerce element; and (iii) the sentencing court
violated Apprendi v. New Jersey, 530 U.S. 466 (2000),
in its application of the three-strikes enhancement under 18 U.S.C. § 3559(c). United States v. Williams, 308
F.3d 833, 835 (8th Cir. 2002). Despite his appeal, the
Eighth Circuit affirmed Williams’ conviction and sentence, ruling that while “[t]he district court erred in
giving a jury instruction that did not require the jury
to find an ‘actual effect’ on commerce[,]” the error was
2

Verdict, United States v. Williams, No. 00-cr-00056 (N.D.
Iowa Aug. 9, 2001), ECF No. 76.
3
Notice of Appeal, United States v. Williams, No. 00-cr00056 (N.D. Iowa Nov. 6, 2001), ECF No. 102.

App. 15
harmless, and the district court did not err on the other
issues Williams raised. Id. at 840. To date, Williams
has filed several appeals and at least five motions for
postconviction relief in an attempt to truncate his
mandatory life sentence under the Three Strikes Law.
PROCEDURAL HISTORY
On January 5, 2004, Williams filed his first motion
to vacate under 28 U.S.C. § 2255,4 and, with the assistance of counsel, ultimately streamlined his motion to
encompass two main arguments: (i) trial counsel was
ineffective in failing to move for mistrial based on prosecutorial misconduct during closing arguments; and
(ii) appellate counsel ineffectively briefed and argued
his direct appeal.5 On November 20, 2006, the district
court denied Williams’ motion, holding that none of his
grounds for relief had merit.6 Williams attempted to
appeal the district court’s denial of his motion, but the
court declined to issue a certificate of appealability.7
The Eighth Circuit affirmed the district court’s denial
of a certificate of appealability a few months later.8
4

Motion to Vacate, United States v. Williams, No. 00-cr00056 (N.D. Iowa Jan. 5, 2004), ECF No. 115.
5
Defendant’s Brief, United States v. Williams, No. 00-cr00056 (N.D. Iowa Nov. 18, 2005), ECF No. 138.
6
Order, United States v. Williams, No. 00-cr-00056 (N.D.
Iowa Nov. 20, 2006), ECF No. 146.
7
Order, United States v. Williams, No. 00-cr-00056 (N.D.
Iowa Dec. 21, 2006), ECF No. 153.
8
Judgment, United States v. Williams, No. 00-cr-00056 (N.D.
Iowa Feb. 12, 2007), ECF No. 163.

App. 16
On April 2, 2007, Williams attempted to file a successive § 2255 motion,9 under Rule 60(b)(4) of the Federal Rules of Civil Procedure, which provides various
grounds for relief from a Judgment or Order. See FED.
R. Civ. P. 60. In his motion, Williams argued the judgment against him was void because Congress never
voted on the Hobbs Act. The district court denied Williams’ motion, and he appealed to the U.S. Court of
Appeals for the Eighth Circuit in May 2007.10 A few
months later, construing his appeal under 60(b)(4) as a
request for authorization to file a successive habeas petition, the Eighth Circuit denied authorization and dismissed Williams’ appeal.11
On July 23, 2009, Williams filed a motion to reduce
sentence12 arguing that under 18 U.S.C. § 3582(c)(2)
and Amendment 709 to the Sentencing Guidelines, he
was entitled to a resentencing hearing, as his “prior
sentences were for offenses that were not separated by
an intervening arrest, [therefore][,] the convictions
[were] to be considered as a single conviction.” The district court denied the motion,13 and Williams again

9

Motion for Rule 60(b)(4), United States v. Williams, No. 00cr-00056 (N.D. Iowa Apr. 2, 2207), ECF No. 165.
10
Notice of Appeal, United States v. Williams, No. 00-cr00056 (N.D. Iowa May 10, 2007), ECF No. 168.
11
Judgment of USCA, United States v. Williams, No. 00-cr00056 (N.D. Iowa July 10, 2007), ECF No. 177.
12
Mot. to Reduce Sentence, United States v. Williams, No.
00-cr-00056 (N.D. Iowa July 23, 2009), ECF No. 182.
13
Order, United States v. Williams, No. 00-cr-00056 (N.D.
Iowa Aug. 14, 2009), ECF No. 184.

App. 17
appealed the decision.14 In December 2009, the Eighth
Circuit affirmed the district court’s denial of his motion.15
On January 3, 2012, Williams attempted to file his
second successive § 2255 motion16 arguing, inter alia,
the Court’s jurisdiction over his criminal case was
based on false testimony. The same day of his filing, the
district court dismissed the action because Williams
had not requested authorization from the Eighth Circuit to file a second § 2255 motion with the court.17
Williams appealed the district court’s decision.18 The
Eighth Circuit construed his appeal as an application
for a certificate of appealability, denied his application,
and dismissed the appeal.19
On May 21, 2014, Williams attempted to file his
third successive § 2255 motion20 arguing (i) in light
of Descamps v. United States, 133 S. Ct. 2276 (2013),
his convictions for second degree robbery did not
14

Notice of Appeal, United States v. Williams, No. 00-cr00056 (N.D. Iowa Sept. 2, 2009), ECF No. 185.
15
Judgment of USCA, United States v. Williams, No. 00-cr00056 (N.D. Iowa Dec. 28, 2009), ECF No. 189.
16
Motion to Vacate, Williams v. United States, No. 12-cv00001 (N.D. Iowa Jan. 3, 2012), ECF No. 1.
17
Order, Williams v. United States, No. 12-cv-00001 (N.D.
Iowa Jan. 3, 2012), ECF No. 2.
18
Notice of Appeal, Williams v. United States, No. 12-cv00001 (N.D. Iowa Jan. 12, 2012), ECF No. 4.
19
Judgment of USCA, Williams v. United States, No. 12-cv00001 (N.D. Iowa Mar. 30, 2012), ECF No. 9.
20
Motion to Vacate, Williams v. United States, No. 14-cv00064 (N.D. Iowa May 21, 2014), ECF No. 1.

App. 18
constitute predicate offenses (using the modified categorical approach) under the Three Strikes Act; and (ii)
his conviction must be overturned because the enhancement for which he was sentenced was not included in the indictment and “[t]he elements for the . . .
enhancement [were not] found by a jury beyond a reasonable doubt. Thirteen days later, the district court
dismissed his motion, ruling Williams once again
failed to obtain authorization from the Eighth Circuit
Court of Appeals to file a successive § 2255 motion.21
Williams declined to appeal the dismissal of his motion.
On May 25, 2016, Williams attempted to file his
fourth successive § 2255 motion,22 along with thirtyone other petitioners and the assistance of counsel, arguing (i) his sentence was unconstitutional under
Johnson v. United States, 135 S. Ct. 2551 (2015), and
Welch v. United States, 136 S. Ct. 1257 (2016), because
the Supreme Court in Johnson held that the residual
clause of the Armed Career Criminal Act (“ACCA”) defining “violent felony” was unconstitutionally vague.
Almost a year later, the district court entered an order
to show cause23 ruling that none of the petitioners were
sentenced under the ACCA, and each were found to
be career offenders and sentenced under the career
21

Order, Williams v. United States, No. 14-cv-00064 (N.D.
Iowa June 3, 2014), ECF No. 4.
22
Motion to Vacate, Williams v. United States, 16-cv-00107
(N.D. Iowa May 25, 2016), ECF No. 1.
23
Order to Show Cause, Williams v. United States, 16-cv00107 (N.D. Iowa Mar. 8, 2017), ECF No. 3.

App. 19
offender enhancement in United States Sentencing
Guideline §4B 1.1(a). In its order, the court also mandated that in light of the Supreme Court’s decision in
Beckles v. United States, 137 S. Ct. 886 (2017), which
concluded that the United States Sentencing Guidelines were not subject to a void for vagueness challenge
under the Fifth Amendment, each of the cases would
be dismissed unless a petitioner in his respective case
showed cause why dismissal should not occur.
On April 20, 2017, Williams responded to the
court’s order by filing a supplemental petition in the
Eighth Circuit.24 In his petition, Williams argued (i) under Beckles v. United States, 137 S. Ct. 886 (2017), preBooker sentences imposed under the residual clause of
the Career Offender Guidelines were subject to challenge as being void for vagueness; (ii) his claim did not
rely on a second rule not recognized in Johnson, and
was not barred by Donnell v. United States, 826 F.3d
104 (8th Cir. 2016); and (iii) he had made a prima facie
case that his sentence relied on the unconstitutionally
vague residual clauses of the Career Offender Guideline and 18 U.S.C. 3559(c)(2)(F). About a month later,
the Government responded, arguing Williams (i) had
not made a prima facie showing that a new rule of constitutional law supported authorization of a successive § 2255 motion on his 18 U.S.C. § 3559(c) claim;
(ii) failed to make a prima facie showing that a new
rule of constitutional law supported authorization of a
successive § 2255 motion on his Career Offender claim;
24

Supplemental Petition, Williams v. United States, 16-2434
(8th Cir. Apr. 20, 2017).

App. 20
and (iii) procedurally defaulted by not raising his
claims on direct appeal.25 On January 30, 2019, the
Eighth Circuit denied Williams’ petition for authorization to file a successive habeas application in district
court.26
On March 11, 2019, Williams filed the § 2241 Petition at hand,27 arguing that pursuant to Mathis v.
United States, 136 S. Ct. 2243 (2016), and other Supreme Court caselaw, second degree robbery (as defined by the Iowa Criminal Code) no longer qualifies as
a predicate “serious violent felony” for the purpose of a
sentencing enhancement under the Three Strikes Law,
18 U.S.C. § 3559(c). (ECF No. 1 at 12.) On May 16, 2019,
the Government filed its Response (ECF No. 5),28 and
on June 3, 2019, Williams filed his Traverse (ECF No.
8). As part of its Response, the Government also included a Motion for Leave to Bifurcate, requesting that
the Court first address its procedural argument and
then allow it to present “other substantive and procedural defenses. . . . if the Court finds that Petitioner
can . . . challenge his career offender designation in a
§ 2241 proceeding[.]” (ECF No. 5 at 5.) This Order follows.

25

Response in Opposition to Petition, Williams v. United
States, 16-2434 (8th Cir. May 22, 2017).
26
Judgment, United States v. Williams, No. 00-cr-00056
(N.D. Iowa Jan. 30, 2019), ECF No. 196.
27
Hereinafter cited as “Pet.”.
28
Hereinafter cited as “Resp.”.

App. 21
LEGAL STANDARD
“Congress has granted federal district courts,
‘within their respective jurisdictions,’ the authority to
hear applications for habeas corpus by any person who
claims to be held ‘in custody in violation of the Constitution or laws or treaties of the United States.’ ” Rasul
v. Bush, 542 U.S. 466, 473 (2004) (quoting 28 U.S.C.
§§ 2241(a), (c)(3)). “The statute traces its ancestry to
the first grant of federal-court jurisdiction: Section 14
of the Judiciary Act of 1789 authorized federal courts
to issue the writ of habeas corpus to prisoners who are
‘in custody, under or by colour of the authority of the
United States, or are committed for trial before some
court of the same.’ ” Id. (internal citation omitted). “In
1867, Congress extended the protections of the writ to
‘all cases where any person may be restrained of his
or her liberty in violation of the constitution, or of any
treaty or law of the United States.’ Id. (citing Felker v.
Turpin, 518 U.S. 651, 659-60, (1996)).
The statutory provisions on habeas corpus appear as sections 2241 to 2255 of the 1948 Judicial Code. The recodification of that year set
out important procedural limitations and additional procedural changes were added in
1966. The scope of the writ, insofar as the statutory language is concerned, remained essentially the same, however, until 1996, when
Congress enacted the Antiterrorism and Effective Death Penalty Act, placing severe restrictions on the issuance of the writ for state
prisoners and setting out special, new habeas
corpus procedures for capital cases. The changes

App. 22
made by the 1996 legislation [were] the end
product of decades of debate about habeas corpus.
Norman v. United States, No. 08CR86, 2019 WL
1386399, at *1 (N.D. Miss. Mar. 26, 2019) (quoting 20
CHARLES ALAN WRIGHT & MARY KAY KANE, FEDERAL
PRACTICE AND PROCEDURE § 56 (2d ed. 2011)).
“Since 1948, federal prisoners who contend that
they were . . . sentenced in violation of the Constitution
or laws of the United States have been required in
most cases to present that claim through a motion under 28 U.S.C. § 2255.” Webster v. Daniels, 784 F.3d 1123,
1124 (7th Cir. 2015). “The motion must be filed in the
district of conviction.” Id. “As a rule, the remedy afforded by section 2255 functions as an effective substitute for the writ of habeas corpus that it largely
replaced.” Id. (citing 28 U.S.C. § 2241; United States v.
Hayman, 342 U.S. 205, 218-19 (1952)). “But Congress
recognized that there might be occasional cases in
which ‘the remedy by motion is inadequate or ineffective to test the legality of [the applicant’s] detention.’ ”
Id. (quoting 28 U.S.C. § 2255(e)).
Whether § 2255 is inadequate or ineffective depends on whether it allows the petitioner a “reasonable
opportunity to obtain earlier judicial correction of a
fundamental defect in his conviction or sentence because the law changed after his first 2255 motion.” In
re Davenport, 147 F.3d 605, 609 (7th Cir. 1998) (emphasis added). In the wake of Davenport, 147 F.3d 605 (7th
Cir. 1998), the Seventh Circuit distilled this holding

App. 23
into a three-part test. It ruled that a petitioner who
seeks to invoke the savings clause of § 2255(e) in order
to proceed under § 2241 must satisfy the following conditions: “(1) the petitioner must rely on a case of statutory interpretation (because invoking such a case
cannot secure authorization for a second § 2255 motion); (2) the new rule must be previously unavailable
and apply retroactively; and (3) the error asserted
must be grave enough to be deemed a miscarriage of
justice, such as a conviction of an innocent defendant.”
Davis v. Cross, 863 F.3d 962, 964 (7th Cir. 2017).
DISCUSSION
The question facing this Court is whether Williams has had a reasonable opportunity to obtain earlier judicial correction of a fundamental defect in his
sentence because the law changed after his first 2255
motion in 2001. If so, then his case must be dismissed
at the threshold; if not, then he may proceed to the
merits of his petition. Webster, 784 F.3d at 1124. Williams argues he has not had such an opportunity because Mathis v. United States, 136 S. Ct. 2243 (2016),
is a new statutory interpretation case that was decided
subsequent to his first § 2255 motion. (Pet. at 20.) He
adds that his petition is also valid because “[he] is serving a sentence that exceeds the maximum sentence he
[w]ould have faced for violating 18 U.S.C. § 1951(a)
and 3559(c),” without the three-strikes sentencing enhancement. Id. In response, the Government asserts
that Williams fails to satisfy the prerequisite procedural requirements in order to bring a § 2241 petition.

App. 24
(Resp. at 4-5.) Specifically, it argues Mathis fails to establish a new rule, and Williams fails to reference any
caselaw that rejected or foreclosed his current argument at the time he filed his initial § 2255 motion. Id
at 5-8.
This Court finds that Williams has had a reasonable opportunity to obtain earlier judicial correction of
a fundamental defect in his sentence, and that the law
has not changed, on the issue under which he brings
the Petition at hand, since he filed his first § 2255 motion. Accordingly, Williams has not satisfied the second
condition for filing a § 2241 petition, and his Petition is
DENIED.
I.

Mathis Did Not Establish a New Rule

From a procedural standpoint, § 2255 is inadequate or ineffective only if the petitioner is relying on
a new rule that was previously unavailable and applies
retroactively. Davis, 863 F.3d at 964. “In general . . . a
case announces a new rule when it breaks new ground
or imposes a new obligation on the States or the Federal Government,” or “if the result was not dictated by
precedent existing at the time the defendant’s conviction became final.” Teague v. Lane, 489 U.S. 288, 301
(1989). In terms of retroactivity, “[t]he declaration of
retroactivity must come from the Justices.” Simpson v.
United States, 721 F.3d 875, 876 (7th Cir. 2013). Unfortunately, for Williams, the Supreme Court’s decision in
Mathis did not establish a new rule that applies retroactively.

App. 25
There is no question that Mathis satisfies the first
condition for a petition under 28 U.S.C. § 2241: It is a
case of statutory interpretation. Holt v. United States,
843 F.3d 720, 722 (7th Cir. 2016) (“Mathis interprets
the statutory word “burglary” and does not depend on
or announce any novel principle of constitutional
law.”); Dawkins v. United States, 829 F.3d 549, 551 (7th
Cir. 2016) (“Mathis . . . is a case of statutory interpretation.”). And while this Court has been silent as to
whether Mathis established a new rule for purposes of
habeas relief, and other district courts in this circuit
have been split on the issue, compare Wadlington v.
Werlich, No. 17-cv-449, 2017 WL 3055039, at *3 (S.D.
Ill. Mar. 13, 2018) (reasoning Mathis satisfied the first
two conditions of a § 2241 petition); and Winters v.
Krueger, No. 17-cv-386, 2018 WL 2445554, at *2 (S.D.
Ind. May 31, 2018) (same); with Cox v. Kallis, No. 17cv-1243, 2018 WL 2994378, at *3 (C.D. Ill. June 14,
2018) (“Mathis is not a new rule[.]”); Neff v. Williams,
No. 16-cv-749, 2017 WL 3575255, at *2 (W.D. Wis.
Aug. 17, 2017) (Mathis did not announce a new rule,
but “merely reaffirmed its 1990 holding in Taylor [v.
United States, 495 U.S. 575 (1990).]”), the Mathis Court
itself was explicit that it did not establish a new rule.
Mathis, 136 S. Ct. at 2251 (holding that its longstanding precedent resolved the case, and that “Taylor set
out the essential rule governing ACCA cases more
than a quarter century ago.”).
The Eighth Circuit has also concluded that Mathis
did not establish a new rule, observing that the decisions in Mathis and Descamps v. United States, 570

App. 26
U.S. 254 (2013), “are simply the Supreme Court’s latest
interpretations of the categorial approach the Court
has long applied in deciding whether a prior conviction
is an ACCA violent felony.” Martin v. United States, 904
F.3d 594, 597 (8th Cir. 2018); Winarske v. United States,
913 F.3d 765, 768 (8th Cir. 2019) (“[N]either Mathis nor
Descamps announced ‘a new rule of law, made retroactive to cases on collateral review by the Supreme
Court,’ as § 2255(h)(2) and § 2244(b)(2)(A) require.”).
As such, the Court concludes that Mathis did not establish a new rule that applies retroactively and DENIES Williams’ attempt to argue otherwise.
II.

The New Rule Was Not Previously Unavailable

As evidenced by the history of his numerous appeals and § 2255 motions, Williams has made repeated
attempts arguing the sentencing enhancement under
18 U.S.C. § 3559(c) is unconstitutional. Prior to sentencing, Williams raised two such arguments.29 First,
he argued that under Apprendi v. New Jersey, 530 U.S.
466 (2000), the fact and nature of the enhancing felonies needed to be submitted to a jury and proved
beyond a reasonable doubt. Second, he argued it was
a denial of due process to place the burden on him
to prove his prior convictions were not qualifying “serious violent felonies” for purposes of the § 3559(c)

29

Brief of Appellant, United States v. Williams, No. 01-3649
(8th Circuit Jan. 8, 2002).

App. 27
sentencing enhancement. His arguments were denied,
and he was sentenced to life in prison.
After his conviction, Williams appealed the denial
of his arguments, arguing the application of the Three
Strikes Law violated the principles of Apprendi and
Patterson v. New York, 432 U.S. 197 (1977).30 In his first
§ 2255 motion, Williams argued that his counsel was
ineffective for stipulating to the facts underlying his
prior convictions, thereby depriving him of the ability
to argue that the prior convictions were not “serious
violent felonies” to support sentencing under 18 U.S.C.
§ 3559(c). In his second § 2255 motion, Williams argued the Hobbs Act itself was unconstitutional. In his
fourth § 2255 motion, Williams argued, in light of the
Supreme Court’s ruling in Descamps, his convictions
for second degree robbery did not constitute predicate
offenses under the Three Strikes Act. In his fifth § 2255
motion, Williams argued his sentence was unconstitutional under Johnson v. United States, 135 S. Ct. 2551
(2015), and Welch v. United States, 136 S. Ct. 1257
(2016), because the Supreme Court in Johnson held
that the residual clause of the ACCA defining “violent
felony” was unconstitutionally vague. In a supplemental
brief to his fourth § 2255 motion, Williams argued, under Beckles, pre-Booker sentences imposed under the
residual clause of the Career Offender Guidelines were
subject to challenge as being void for vagueness, and
that his sentence relied on the unconstitutionally
vague residual clauses of 18 U.S.C. 3559(c)(2)(F).
30

Brief of Appellant at 22-30.

App. 28
In this scenario, as in one of the scenarios in Davenport, allowing Williams to seek habeas corpus relief
is not needed to give him a reasonable opportunity to
obtain a reliable judicial determination of the legality
of his sentence. He had an opportunity to raise the
argument he makes now when he appealed his conviction under the Hobbs Act and later when he filed
a § 2255 motion challenging his sentence. Nothing
in § 2255 prevented Williams from obtaining relief
against an unconstitutional sentence in 2001. Nothing
in 2255 made the remedy provided by that section inadequate to enable Williams to test the legality of his
life sentence. “A prisoner cannot be permitted to lever
his way into section 2241 by making his section 2255
remedy inadequate[.]” Morales v. Bezy, 499 F.3d 668
(7th Cir. 2007). Williams attempts to do just that. Because the argument he brings in the § 2241 Petition at
hand was not previously unavailable, this argument
fails as well.
III. RESPONDENT’S MOTION TO BIFURCATE
On May 16, 2019, the Government filed its Response to Williams’ § 2241 Petition. In its Response,
the Government included a Motion to Bifurcate requesting the Court “permit it to bifurcate its response
and accept the included partial response” to Williams’
Petition. (Resp. at 1.) Presumably, the Government
brings its bifurcation request under Rule 42 of the Federal Rules of Civil Procedure, which states: “If actions
before the court involve a common question of law or

App. 29
fact, the court may: (3) issue any other orders to avoid
unnecessary cost or delay.” Fed. R. Civ. P. 42(a)(3). In
the Petition at hand, the Court is tasked with determining whether Williams is entitled to sentencing relief under 28 U.S.C. § 2241. Before the Court can reach
the merits of his Petition, Williams must first overcome
several procedural barriers. The Government asks the
Court whether it may argue Williams’ Petition is invalid on procedural grounds before it is required to respond to his Petition on the merits of his arguments.
(Resp. at 5.) Because the Court has dismissed Williams’ Petition on procedural grounds, no further response on the merits of his claim is needed, and the
Government’s request for bifurcation is GRANTED.
CONCLUSION
For the aforementioned reasons, the Government’s
[5] Motion for Leave to Bifurcate is GRANTED, Williams’ [1] Petition is DENIED, and his claim is DISMISSED. The Clerk of Court is directed to close this
case.
ENTERED this 24th day of June 2019.
/s/ Michael M. Mihm
Michael M. Mihm
United States District Judge

App. 30
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
June 1, 2021
Before
FRANK H. EASTERBROOK, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
AMY J. ST. EVE, Circuit Judge
NO. 19-2671
LORENZO WILLIAMS,
Petitioner-Appellant,
v.
STEVE KALLIS,
Respondent-Appellee.

Appeal from the United
States District Court for
the Central District
of Illinois.
No. 1:19-cv-01083-MMM
Michael M. Mihm,
Judge.

ORDER
On consideration of the petition for rehearing, the
judges on the original panel have voted to deny rehearing. It is, therefore, ORDERED that the petition for
rehearing is DENIED.

